U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ford Motor Company v. United States of America,
S.Ct.No. 19-1026

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 13,
2020, and placed on the docket on February 18, 2020. The government's response is due on
March 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 20, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1026
FORD MOTOR COMPANY
USA

JESSICA L. ELLSWORTH
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHiNGTON, DC 20004
202-637-5600
JESSICA.ELLSWORTH@HOGANLOVELLS.CO
M
FRANCES HADFIELD
CUSTOMS & INTERNATIONL TRADE BAR
ASSOCIATION
204 E. ST. NE
WASHINGTON, DC 20002
202-675-8447
FHADFIELD@CRO WELL. COM
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 KSTREET,NW
WASHINGTON, DC 20005
202-736-8000
PKEISLER@SIDLEY.COM

